No.
In The
Supreme Court of the United States

JENN-CHING LUO,
Petitioner,
v.
LOWE'S HOME CENTERS, LLC
JAMES R. WALTERS
CHRIS S. ERNEST
Respondents.

PROOF OF SERVICE
I, JENN-CHING LUO, do swear or declare that on this date, November 19,
2019, I have served three copies of the enclosed PETITION FOR A WRIT OF
CERTIORARI on the following by USPS Priority Mail with tracking number:
Timothy Richard Chapin, Esq.
Cipriani & Werner PC
450 Sentry Pkwy Ste 200
Blue Bell, PA 19422

David Sean Cohen, Esq.
Mintzer Sarowitz Zeris Ledva & Meyers, L.L.P.
1500 Market St Ste 4100
Philadelphia, PA 19102-2128

John Joseph Bateman, Esq.
Lavin, O'Neil, Cedrone & DiSipio
6TH & Race Sts Ste 500
Philadelphia, PA 19106

I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 19, 2019.

JENN-CHING LUO

